APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals
for the Eleventh Circuit (April 23, 2019)........... 1a
Order of the District Court for the Southern District
of Florida (October 22, 2018) ............................ 12a
Order of the District Court for the Southern District
Court of Florida (July 2, 2018) ......................... 24a
Opinion of the United States Court of Appeals
for the Eleventh Circuit
(May 9, 2018) .................................................... 27a
Opinion of the United States Court of Appeals
for the Eleventh Circuit
(January 31, 2018)............................................ 31a
Opinion of the United States Court of Appeals
for the Eleventh Circuit
(November 4, 2016) .......................................... 45a
Order of the District Court for the Southern District
Court of Florida (February 26, 2016) ............... 55a
REHEARING ORDERS
Order of the United States Court of Appeals for
the Eleventh Circuit Granting Rehearing En
Banc (March 23, 2017) ..................................... 64a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(APRIL 23, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
ESTELLE STEIN,

Defendant-Appellant.

________________________
No. 18-14625

D.C. Docket No. 1:15-cv-20884-UU
Appeal from the United States District Court
for the Southern District of Florida
Before: William PRYOR,
Julie CARNES and BRANCH, Circuit Judges.
PER CURIAM:
This appeal is the second occasion we have
reviewed whether Estelle Stein’s affidavit constituted
substantial evidence that could defeat summary judgment in an action to reduce federal income tax assessments to judgment. In Stein’s first appeal, we initially
affirmed on the ground her affidavit failed to create a
material factual dispute about the validity of the

App.2a
assessments because, under Mays v. United States, 763
F.2d 1295, 1297 (11th Cir. 1985), her “general and selfserving assertions” failed to rebut the presumption of
correctness given the assessments, United States v.
Stein, 840 F.3d 1355, 1357 (11th Cir. 2016), but later
we granted Stein’s petition for rehearing en banc,
overruled Mays to the extent it outlawed self-serving
affidavits, United States v. Stein, 881 F.3d 853, 85659 (11th Cir. 2018), and remanded the case to the district court, United States v. Stein, 889 F.3d 1200, 1202
(11th Cir. 2018). In this second appeal, Stein argues
that her affidavit is specific, relevant, and detailed
enough to preclude summary judgment and that the
district court on remand violated Federal Rule of Civil
Procedure 56 and her right to due process under the
Fifth Amendment. We affirm.
I. Background
The history of this case is well-documented in our
earlier published opinions. We describe only the facts
pertinent to the issues in this appeal.
The government moved for summary judgment in
its action to reduce to judgment assessments against
Stein on five federal tax returns that she filed late.
The government assessed Stein penalties for the late
filings and late payments of her income taxes for 1996,
1999, and 2000, and penalties and interest for her failure to pay, late filing, and late payment of her income
taxes for 2001 and 2002. The government submitted
copies of Stein’s federal tax returns, transcripts of her
tax accounts for 1996 and 1999 through 2002, and an
affidavit from Officer Michael Brewer of the Internal
Revenue Service to establish that Stein had outstanding tax assessments.

App.3a
Stein opposed summary judgment and submitted
an affidavit as evidence that the assessments were
erroneous. Stein averred that the Internal Revenue
Service had acknowledged having misapplied her tax
payment for 1996 to tax year 1979 and that she had
paid the taxes due and a late penalty for each of her tax
returns. The relevant paragraphs of her affidavit
stated as follows:
8.

For 1996, this tax return was filed on
November 15, 2004. The IRS had no record
of receiving any payment and is claiming
that full amount of the tax is due, along with
interest and penalties.

9.

Subsequently, the IRS admitted to having
received my check, but we later learned that
it was misapplied to 1979, a closed and paid
year.

10. For the year 1999, I filed the return as
surviving spouse on February 11, 2005. This
return showed an amount due of $33,612. I
paid $35,226, which included the late penalty. The IRS has a record of that payment.
11. For the year 2000, I filed my return as
surviving spouse on January 11, 2005. The
amount due on the return was $4,127. I paid
$4,349.00, which amount included the late
penalty. The IRS has a record of having
received that payment.
12. For the year 2001, I filed my return, as
surviving spouse, on March 10, 2005. The
amount on the return shows $15,998 due. Although I recall paying the tax on that return,
including a late penalty consistent with the

App.4a
other returns that I filed, the IRS does not
have a record of receiving such payment.
13. For the year 2002, I filed my return on March
10, 2005, as surviving spouse. The amount of
tax shown on the return was $52,342. Although I recall writing a check for this
amount, plus, late penalties, the IRS has no
record of receiving this amount.
[...]
17. The only record I could find, by sheer
coincidence, was a check stub dated November
2004, for the exact amount of the tax due for
1996, which, apparently, the check previously
attached to said stub was mailed with the
1996 tax return, similar to each of the tax
returns in question.
18. I showed this tax stub to Mr. Michael Brewer,
Revenue Office[r] with the IRS. After [he] did
some research, he then confirmed that the
IRS had, in fact, received the check for the
1996 tax year . . . ([In] [t]he handwritten
notes . . . he agreed to correctly apply this
missing payment to the 1996 tax year and
calculated and credited accrued interest to
2015.)
[...]
21. Notwithstanding the IRS’ objective in pursuing this claim to foreclose on my home, it is
my unwavering contention that I paid the
taxes due, including late filing penalties, at
such time as I filed the returns for each of the
tax years in question.

App.5a
On remand, the district court ordered the government to “file a new motion for summary judgment”
that addressed “ONLY . . . [whether her] self-serving
affidavit create[s] a genuine issue of material fact
about [her] tax liability” and Stein to “address ONLY
the same question.” The district court based its order
on our decision “[e]n banc, . . . [that] overruled Mays,
. . . [our] conclu[sion] that ‘a non-conclusory affidavit
which complies with Federal Rule of Civil Procedure
56 can create a genuine dispute concerning an issue of
material fact, even if it is self-serving and/or
corroborated,’” and our statement “that ‘a self-serving
and/or uncorroborated affidavit will not always preclude summary judgment. . . . ’” (Alterations adopted.)
The district court also mentioned that we had “declined
to decide whether ‘substantive federal tax law’ require[d] corroboration of a taxpayer’s affidavit.” The district court prohibited the parties from “engag[ing] in
further discovery, . . . supplement[ing] the record, or
otherwise . . . mak[ing] new arguments which they
could have made when [the government] moved for
summary judgment the first time.”
The government moved for summary judgment on
the ground that Stein’s affidavit failed to create a
material factual dispute that she had paid her tax
debts. The government argued that, to rebut the presumption of correctness of its assessment, Stein had
to present documentary evidence that the Service
received her tax payments. The government also argued
that Stein’s “general rather than specific” allegations
failed to create a genuine factual dispute that she had
paid her tax debts.
The government attached to its motion current
transcripts of Stein’s accounts for tax years 1996 and

App.6a
1999 through 2002 and an affidavit from Revenue
Officer Brewer stating that he had revised the assessment against Stein for tax year 1996 and that he had
updated Stein’s assessments for tax years 1999
through 2002. The transcripts reflected that, for tax
year 1996, Stein paid income taxes of $548 yet owed a
late-filing penalty of $123.30, a late-payment penalty of
$137, and accrued interest of $486.72, and that, for tax
year 1999, she paid income taxes of $33,612 and an
estimated penalty of $1,614 yet owed a late-filing
penalty of $7,562.70, a late-payment penalty of $8,403,
and accrued interest of $52,734.23. The transcripts
also reflected that, for tax year 2000, Stein paid
income taxes of $4,127 and an estimated penalty of
$222 yet owed a late-filing penalty of $928.57, a latepayment penalty of $949.46, and accrued interest of
$1,178.46. Additionally, the transcripts reflected that
Stein reported, but failed to pay, income taxes and
estimated penalties of $16,631 for tax year 2001 and
of $52,342 for tax year 2002.
Stein opposed summary judgment. She argued
that, with “Mays overruled, there is absolutely no
justification under substantive federal tax law or
otherwise . . . [that] required . . . corroborat[ion]” of
her averments that she had paid her taxes and that
her affidavit “create[d] a genuine issue of material fact
concerning [her] payment of her tax liability.” In a
footnote, Stein complained that the government had
“file[d] a new affidavit” and had made a “new argument”
that her affidavit was “insufficient since it fails to
assert that her payment was ‘delivered’” in “violat[ion]
[of] the Court’s July 2, 2018 Order.” Stein argued that,
“[i]f supplemental affidavits were permitted, then

App.7a
certainly [she] could clarify her testimony in opposition to the Government’s newly filed Motion for Summary Judgment,” and she “request[ed] permission to file
a supplemental affidavit.” Stein also argued that she
defeated summary judgment even “if the Court considers
this new argument without . . . [her] having an opportunity to supplement her affidavit or file an additional
affidavit” because she “attested that she mailed her
check for payment together with the filing of each of
her tax returns” and she was entitled to “a presumption of receipt of properly mailed documents. . . . ”
The district court granted summary judgment in
favor of the government. The district court ruled that
“a taxpayer needs to show that they paid the taxes
assessed” and that “the IRS actually received the
funds in question” to rebut the presumption of correctness given an assessment. The district court determined that “Stein’s affidavit [was] insufficient to
create [a] genuine dispute of material fact” because it
was “speculative; based on nothing more than ‘the
best of her recollection.’” The district court ruled that
summary judgment was appropriate because Stein
“offered nothing else to counter the government’s evidence” to “show that the government was paid and
that the assessment . . . is incorrect.”
II. Standard of Review
We review de novo a summary judgment. United
States v. White, 466 F.3d 1241, 1244 (11th Cir. 2006).
Summary judgment is appropriate if “there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a).

App.8a
III. Discussion
Stein had to satisfy a well-established standard
to defeat the motion of the government for summary
judgment. Because the evidence submitted by the government created a presumption that its tax assessments were correct, Stein had to prove that the assessments were erroneous. See White, 466 F.3d at 124849. She had to produce “significant probative evidence,” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
249 (1986), to create a “genuine issue as to any
material fact” that she had paid her tax debts, id. at
250. Her evidence had to be more than “merely
colorable,” id. at 249; it had to be of sufficient quality
and weight “that a reasonable jury could return a
verdict” in her favor, id. at 248.
The affidavit that Stein submitted as evidence
that the assessments were erroneous had to satisfy
certain criteria. Her affidavit had to “made on personal
knowledge.” Fed. R. Civ. P. 56(c)(4). The affidavit had
to contain statements that Stein knew, as opposed to
subjectively believed, that “a certain fact exist[ed] . . . [to] creat[e] a genuine issue of fact about the
existence of that certain fact.” Pace v. Capobianco, 283
F.3d 1275, 1278-79 (11th Cir. 2002); see Ellis v.
England, 432 F.3d 1321, 1326 (11th Cir. 2005). Stein’s
affidavit also had to “set out facts that would be
admissible in evidence.” Fed. R. Civ. P. 56(c)(4); see
Gossett v. Du-Ra-Kel Corp., 569 F.2d 869, 872 (5th
Cir. 1978) (stating that “opposing affidavits [must]
set[ ] forth specific facts to show why there [was] an
issue for trial”). The affidavit had to consist of facts,
not “conclusory allegations . . . [, which] have no
probative value.” Evers v. Gen. Motors Corp., 770 F.2d
984, 986 (11th Cir. 1985).

App.9a
Stein’s affidavit failed to create an issue of fact
about the validity of the assessments. Several of
Stein’s averments did not conform to Rule 56(c)(4).
Stein’s averments that she had an “unwavering
contention that” and believed “to the best of [her]
recollection” that she had paid all her taxes and late
penalties conveyed her subjective belief, not personal
knowledge, that she had satisfied her tax debts. See
Jameson v. Jameson, 176 F.2d 58, 60 (D.C. Cir. 1949)
(“Belief, no matter how sincere, is not equivalent to
knowledge.”) (cited in Pace, 283 F.3d at 1279). Her
averment that she recalled paying her income tax and
penalty for tax year 2001 had no probative value
because she failed to support it with any facts about
the time, place, or form of her payment. See Evers, 770
F.2d at 986. And Stein remaining averments did not
dispute her tax debts. With respect to the 1996 tax
year, Stein’s averments that she filed her tax return
“on November 15, 2004,” and that her “check stub . . .
[reflected payment] for the exact amount of the tax
due” confirmed, rather than contested, that she still
owed accrued interest and late-filing and late-payment
penalties for that tax year. Stein’s averment that she
paid her income taxes and estimated penalties for tax
years 1999 and 2000 did not address the validity of the
related assessments for accrued interest and penalties
imposed for the late filing and the late payment of her
taxes. As to tax year 2002, Stein recalled “writing a
check” for income taxes and penalties, yet she did not
state that she delivered the check, so no dispute
existed that she owed assessments for failing to pay,
for paying and filing late, and for accrued interest.
Stein produced no substantial competent evidence
to defeat summary judgment. Viewed in the light most

App.10a
favorable to Stein, her affidavit provided “a scintilla of
evidence,” which is not enough to survive summary
judgment. See Liberty Lobby, 477 U.S. at 252. And
Stein failed to submit any other evidence to support
her assertion that the tax assessment was erroneous.
See Fed. R. Civ. P. 56(c)(1). Without the existence of a
“genuine dispute as to any material fact . . . [the government was] entitled to judgment as a matter of law.”
See id. R. 56(a).
Stein argues that the district court on remand
violated Federal Rule of Civil Procedure 56 and her
right to due process under the Fifth Amendment, but
we disagree. Stein argues that she was improperly
“limited [in] what arguments [she] could assert,” but
the district court appropriately limited the parties’
arguments based on our instruction to “determin[e]
the impact of Ms. Stein’s affidavit” on the motion of
the government for summary judgment, Stein, 881 F.3d
at 859. Stein argues that the district court violated
Rule 56 by prohibiting her from filing new evidence in
opposition to summary judgment, but Rule 56 does not
address the supplementation of the record on remand.
Furthermore, the admission of evidence is a matter of
discretion, and Stein fails to explain why it was
inappropriate for the district court to refuse to admit
new evidence. See Cambridge Univ. Press v. Albert,
906 F.3d 1290, 1302 (11th Cir. 2018) (“The question
whether to reopen the record on remand is ‘left to the
sound discretion of the trial court.’ Jones & Laughlin
Steel Corp. v. Pfeifer, 462 U.S. 523, 551, 103 S. Ct. 2541,
76 L.Ed.2d 768 (1983).”). And we find unpersuasive
Stein’s conclusory argument that the district court
violated her right to due process by denying her an
opportunity to file a new affidavit. Stein fails to state

App.11a
what facts she would have included in the affidavit or
how she was prejudiced by the inability to file a new
affidavit.
IV. Conclusion
We AFFIRM the summary judgment in favor of the
government.

App.12a
ORDER OF THE DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
(OCTOBER 22, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
ESTELLE STEIN,

Defendants.

________________________
Case No.15-cv-20884-UU

Before: Ursula UNGARO,
United States District Judge.
THIS CAUSE is before the Court upon Plaintiff’s
Motion for Summary Judgment (D.E. 52).
THE COURT has reviewed the motions, the
pertinent portions of the record and is otherwise fully
advised of the premises. For the reasons discussed
below, the motion is granted.
Procedural History
In 2015, the government sued Defendant, Estelle
Stein, seeking to recover unpaid tax penalties. D.E. 1.
The government moved for summary judgment and

App.13a
submitted copies of Stein’s tax returns, transcripts of
her accounts, and an affidavit from and Internal
Revenue Service officer to show that Stein never paid
the penalties. D.E. 31. In opposition to the government’s
summary judgment motion, Stein proffered an affidavit
attesting that “to the best of [her] recollection,” she
paid the taxes and penalties for all the years in
question. D.E. 32-1. This was the only evidence Stein
proffered in opposition to the motion.
Relying on Mays v. United States, 763 F.2d 1295
(11th Cir. 1985), the Court granted summary judgment
for the government because a self-serving affidavit
was insufficient to establish a dispute of material fact.
D.E. 40. A three-judge panel of the Eleventh Circuit
Court of Appeals affirmed. D.E. 48. But, en banc, the
Circuit overruled Mays and held that “[a] nonconclusory affidavit which complies with [Federal Rule
of Civil Procedure] 56 can create a genuine dispute concerning an issue of material fact, even if it is selfserving and/or uncorroborated.” United States v. Stein,
881 F.3d 853, 858-59 (11th Cir. 2018) (en banc) (“Stein
II”). The court cautioned, however, that “a self-serving
and/or uncorroborated affidavit will [not] always
preclude summary judgment.” Id. And it left unresolved
the question of whether substantive federal tax law
requires corroboration of a taxpayer’s affidavit. Id.
Upon remand, the Court ordered the government
to file a new motion for summary judgment that
addressed the following question: “does [Stein’s] selfserving affidavit create a genuine issue of material
fact?” D.E. 49. The motion is now fully briefed and ripe
for disposition.

App.14a
Facts
The facts are few and, except for the ultimate
question of whether Stein paid her tax assessment,
undisputed.
In 2005, Stein and her late husband filed their tax
returns for the years 1996-1999 and 2002. D.E. 52, pp.
2-3. The Steins paid the taxes due and some additional
amounts for anticipated interest and penalties. Id.
But the government claimed that she did not pay all
of the accrued interest and penalties. Id. Stein
responded that, to the best of her recollection, she paid
all the taxes and penalties that she owed for each of
the disputed years. D.E. 32-1. She was unable, however, to provide any supporting documentary evidence. Id. She explained that neither she nor her bank
had copies of any of the relevant bank records. Id.
Legal Standard
Summary judgment is authorized only when the
moving party meets its burden of demonstrating that
“the pleadings, depositions, answers to interrogatories
and admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56. When
determining whether the moving party has met this
burden, the Court must view the evidence and all
factual inferences in the light most favorable to the
non-moving party.” Adickes v. S.H. Kress & Co., 398
U.S. 144, 157 (1970); Rojas v. Florida, 285 F.3d 1339,
1341-42 (11th Cir. 2002).
The party opposing the motion may not simply rest
upon mere allegations or denials of the pleadings;

App.15a
after the moving party has met its burden of proving
that no genuine issue of material fact exists, the nonmoving party must make a showing sufficient to
establish the existence of an essential element of that
party’s case and on which that party will bear the
burden of proof at trial.” See Celotex Corp. v. Catrell,
477 U.S. 317 (1986); Poole v. Country Club of Columbus,
Inc., 129 F.3d 551, 553 (11th Cir. 1997); Barfield v.
Brierton, 883 F.2d 923, 933 (11th Cir. 1989).
If the record presents factual issues, the Court
must not decide them; it must deny the motion and
proceed to trial. Envtl. Def. Fund v. Marsh, 651 F.2d
983, 991 (5th Cir. 1981). Summary judgment may be
inappropriate even where the parties agree on the
basic facts, but disagree about the inferences that
should be drawn from these facts. Lighting Fixture &
Elec. Supply Co. v. Cont’l Ins. Co., 420 F.2d 1211, 1213
(5th Cir. 1969). If reasonable minds might differ on
the inferences arising from undisputed facts, then the
Court should deny summary judgment. Impossible
Elec. Techs., Inc. v. Wackenhut Protective Sys., Inc.,
669 F.2d 1026, 1031 (5th Cir. 1982); see also Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986) (“[T]he
dispute about a material fact is ‘genuine’ . . . if the evidence is such that a reasonable jury could return a
verdict for the nonmoving party.”).
Moreover, the party opposing a motion for summary judgment need not respond to it with evidence
unless and until the movant has properly supported
the motion with sufficient evidence. Adickes, 398 U.S.
at 160. The moving party must demonstrate that the
facts underlying the relevant legal questions raised by
the pleadings or are not otherwise in dispute, or else
summary judgment will be denied notwithstanding

App.16a
that the non-moving party has introduced no evidence
whatsoever. Brunswick Corp. v. Vineberg, 370 F.2d
605, 611-12 (5th Cir. 1967). The Court must resolve all
ambiguities and draw all justifiable inferences in
favor of the nonmoving party. Liberty Lobby, Inc., 477
U.S. at 255.
Analysis
The question before the Court is whether Stein’s
self-serving affidavit precludes summary judgment. It
will if it creates a genuine dispute of material fact, and
whether there is a genuine dispute of material fact
depends on the substantive law at issue. Stein II, 881
F.3d at 858-59. Thus, the Eleventh Circuit directed
this Court consider whether as a matter of federal tax
law, Stein’s affidavit must be corroborated with documentary evidence to create a material dispute of fact.
See D.E. 48.
I.

The Impact of Stein II

In Stein II, the Eleventh Circuit held that “an
affidavit which satisfies Rule 56 of the Federal Rules
of Civil Procedure may create an issue of material fact
and preclude summary judgment even if it is selfserving an uncorroborated.” Stein II, 881 F.3d at 853
(emphasis added). It did not hold that an uncorroborated affidavit always creates an issue of material
fact. Indeed, it took pains to avoid that holding. See id.
at 859 (“We hold only that the self-serving and/or
uncorroborated nature of an affidavit cannot prevent
it from creating an issue of material fact.”). Unfortunately for the district courts, the Circuit offered little
guidance for the practical application of this rule.

App.17a
What’s more, although Stein II arose out of this
tax assessment case, the Circuit declined to consider
how its holding applies in the unique framework of tax
assessment cases. It said only: “[a]s far as we can tell,
there are no federal cases addressing what evidence a
taxpayer needs to present to show that an IRS assessment has been paid or satisfied.” Id. Instead, it
instructed this Court to consider that question in the
first instance.
II.

Framework for Tax Assessment Cases

From the outset, a tax assessment case is unlike
most other civil cases because an IRS tax assessment
is entitled to a presumption of correctness. Quoting
the Supreme Court, the Eleventh Circuit has held that
“[a] tax assessment made by the IRS constitutes a ‘determination that a taxpayer owes the Federal Government a certain amount of unpaid taxes,’ and such determination ‘is entitled to a legal presumption of correctness.’” United States v. Morgan, 419 Fed. Appx.
958, 959 (11th Cir. 2011) (citing United States v. Fior
D’Italia, Inc., 536 U.S. 238, 242, 122 S. Ct. 2117, 2122,
153 L.Ed.2d 280 (2000)). “In reducing a tax assessment
to judgment, the Government must first prove that the
assessment was properly made.” United States v.
Korman, 388 Fed. Appx. 914, 915 (11th Cir. 2010)
(citing United States v. White, 466 F.3d 1241, 1248
(11th Cir. 2006)). A taxpayer carries “the burden of
proving that the IRS’s computations in this regard
were erroneous.” Morgan, 419 Fed. Appx. at 958 (citing
Pollard v. Comm’r, IRS, 786 F.2d 1063, 1066 (11th Cir.
1986)).

App.18a
The question before the Court now is: what is the
taxpayer’s burden to overcome the presumption of correctness? That question has two parts: (1) what is the
taxpayer’s burden of proof; and (2) what evidence is sufficient, at the summary judgment stage, to allow the
jury to consider whether the taxpayer has satisfied that
burden.
A. Stein’s Burden of Proof Is, at Least, Preponderance of the Evidence, and May Be Clear and
Convincing Evidence
Several cases from outside this district have held
that, in order to rebut the presumption of correctness,1
the taxpayer bears the burden of proving by
preponderance of the evidence, that the assessment is
incorrect. See, e.g., Fisher v. United States, 61 F.
Supp. 2d 621, 630 (E.D. Mich. 1999); United States v.
Red Stripe, Inc., 792 F. Supp. 1338, 1341 (E.D.N.Y.
1992); United States v. Dixon, 672 F. Supp. 503, 506
(M.D.Ala.1987).
Two district courts in this circuit, including one
from this district, have held taxpayers to the even
higher standard of clear and convincing evidence. See,
United States v. Mathewson, 839 F. Supp. 858, 860
(S.D. Fla. 1993); United States v. Dixon, 672 F. Supp.
503, 506 (M.D. Ala. 1987), aff’d, 849 F.2d 1478 (11th Cir.
1988). Those cases relied upon the Supreme Court’s
opinion in United States v. Chem. Found., 272 U.S. 1, 14
(1926), which held that official acts of public officers
are entitled to a “presumption of regularity” rebuttable
only by “clear evidence to the contrary.”
1 Here “correctness” refers to the IRS’s determination that Stein has
not paid the assessment; this is not an issue of computation.

App.19a
Here, for the reasons discussed below, Stein’s affidavit is insufficient to defeat summary judgment
under either standard.
B. To Rebut the Presumption, Stein Must Provide
More Than an Uncorroborated Self-Serving
Affidavit
Several cases have addressed what evidence a
taxpayer needs to show that she satisfied an IRS
assessment. For example, in United States v. Graham,
No. 13-CV-1288 WFK VMS, 2015 WL 1003458 (E.D.N.Y.
Mar. 6, 2015), the government moved for summary
judgment to collect unpaid tax liability and to enforce
tax liens. The government provided all the relevant
records in its control. Id. at *4. In opposition, the
taxpayer filed an uncorroborated affidavit saying that
he sent the government seven checks, which the government deposited. Id. The government had no record
of the checks. Id. Neither did the taxpayer’s bank. Id.
The taxpayer also was unable to present copies of the
checks or show that any money had been deducted
from the referenced account. Id. at *5. Lastly, the
taxpayer was unable to prove the correct amount of
the tax assessment. Id. For these reasons, the Court
ruled that the taxpayer’s affidavit, without documentary support, was not sufficient to rebut the government’s presumptively valid assessments.
Stein attempts to distinguish Graham on the
grounds that the assertions in the taxpayer’s affidavit
there were “speculative.” Opp. at p. 5, n. 2. However,
the statement there (that the taxpayer sent, and the
government deposited, seven checks) is no more speculative that Stein’s statement here. Compare id. with
D.E. 32-1 ¶ 7 (“All of the tax returns were filed and, to

App.20a
the best of my recollection, I paid the tax, including
late penalties, for each unfiled tax return when the tax
returns were filed.”).

Latham v. United States, No. CIV. A. 91-2397-O,

1992 WL 403030, (D. Kan. Dec. 1, 1992) is also helpful.
There, the government moved for summary judgment
to collect income and social security taxes that an
employer failed to withhold from wages paid to her
employees. Id. at *1. In opposition, the employer
insisted that she sent the IRS a check. Id. at *3. She
also offered as evidence, two illegible copies of checks
and a copy of the company’s cash disbursements for
the relevant period. Id. The Court ruled that the
checks and disbursements show “that some checks were
drafted to the IRS. . . . ” but “fail[ed] to prove, however, that the IRS ever received payment . . . . ” Id.
(emphasis added). The Court required that in order to
prevail against the government’s motion for summary
judgment, the employer had to present evidence tending
to show “that the checks were deposited and accepted
in payment of taxes by the IRS.” Id.

Latham highlights an important requirement in
tax assessment cases: to rebut presumptive correctness
of a tax assessment, a taxpayer needs to show that they
paid the taxes assessed. In other words, that the IRS
actually received the funds in question. See generally
Grange Mut. Cas. Co. v. Woodard, 861 F.3d 1224, 1232
(11th Cir. 2017) (“[P]ayment is complete only when
the money changes hands.”). It is not sufficient for a
taxpayer to say that they recall sending the IRS a
check.
The Seventh Circuit discussed this requirement
in United States v. Johnson, 355 F. App’x 963 (7th Cir.
2009). In Johnson, the taxpayer argued, among other

App.21a
things, that the amount of the tax assessment leveled
against him was incorrect. Id. at 965. In affirming
summary judgment for the government, the Seventh
Circuit summed up the evidentiary requirement for
rebutting the presumption in favor of the IRS:
What Johnson needs, if he wants to call that
position [that the taxes remain unpaid] into
question, is proof of payment. A cancelled
check (corporate or personal) might do. Bank
statements showing a debit equal to the outstanding taxes might do. But Johnson has not
demonstrated payment. He cannot use
bureaucratic error as a substitute.

Id.
III. Applying These Principles Here, Summary Judgment in Favor of the Government Is Appropriate
Under either a preponderance of the evidence or
clear and convincing evidence standard, Stein’s affidavit
is insufficient to create genuine dispute of material
fact. See Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986) (holding that a dispute is “genuine”
only if “the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.”).
Here, the weakness of Stein’s affidavit and the lack of
any other evidence preclude a reasonable jury from
returning a verdict in her favor.
As in Graham, 2015 WL 1003458, Stein’s affidavit
is speculative; based on nothing more than “the best
of [her] recollection.” D.E. 32-1 ¶ 7. And the Eleventh
Circuit has repeatedly held that speculation cannot
defeat summary judgment. See, e.g., Brown v. Publix
Super Markets, Inc., 626 F. App’x 793, 797 (11th Cir.

App.22a
2015) (“[B]ut she provided no evidence to support this
claim. Such speculation, unsupported by evidence,
cannot defeat summary judgment.”); Cordoba v.
Dillard’s, Inc., 419 F.3d 1169, 1181 (11th Cir.2005)
(“Speculation does not create a genuine issue of fact;
instead, it creates a false issue, the demolition of
which is a primary goal of summary judgment.”).
Furthermore, as in Johnson, 355 F. App’x 963,
Fisher, 61 F. Supp. 2d 621, Dixon, 672 F. Supp. 503,
and Latham, 1992 WL 403030, Plaintiff has offered

nothing else to counter the government’s evidence.
She has no proof of payment; no canceled checks, no
bank statements, no carbon copies from an old
checkbook, nor any other evidence with which to rebut
the presumption in favor of the government. Thus, she
cannot show that the government was paid and that the
assessment, therefore, is incorrect.
IV. Denying Summary Judgment Would Lead to an
Absurd Result
The cases relied upon above articulate rules that
accord with the policy of the tax code, which is to
facilitate the prompt and efficient collection of federal
revenue. See, e.g., Meyer’s Estate v. Comm’r, 200 F.2d
592, 596 (5th Cir. 1952) (recognizing that the overarching
policy of the tax code is to “further[ ] orderly administration of the tax laws and prompt collection of the
Federal revenues.”). If those cases are ignored and,
post Stein II, any tax collection action can be forced to
trial by an affidavit based solely on the taxpayer’s
uncorroborated recollection, then the IRS cannot
promptly and efficiently collect the federal revenues.
Furthermore, if Stein II is mean to have that effect, it

App.23a
would, for all practical purposes, nullify the presumption of correctness; reducing it to no more than a
footnote in the jury’s instructions. The Court stands
holding Pandora’s Box, so to speak, and absent a clear
command from the Eleventh Circuit to open it, sound
policy counsels the Court to keep it closed.
Conclusion
For these reasons, it is hereby
ORDERED AND ADJUDGED that the government’s renewed motion for summary judgment (D.E.
52) is GRANTED. The Court will enter a separate judgment. It is further
ORDERED AND ADJUDGED that the case is
CLOSED for administrative purposes.
DONE AND ORDERED in Chambers at Miami,
Florida, this 22nd day of October, 2018.
/s/ Ursula Ungaro
United States District Judge

App.24a
ORDER OF THE DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
(JULY 2, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
ESTELLE STEIN,

Defendants.

________________________
Case No.15-cv-20884-UU

Before: Ursula UNGARO,
United States District Judge.
THIS CAUSE is before the Court upon the
mandate from the United States Court of Appeals for
the Eleventh Circuit, issued July 2, 2018 (D.E. 48).
THE COURT has reviewed the pertinent portions of
the record and is otherwise fully advised of the premises.
On February 22, 2016, this Court granted summary
judgment for the Plaintiff, the United States of America,
in this tax liability case. The Court granted summary
judgment because Defendant supported her arguments only with a self-serving affidavit. The Eleventh
Circuit originally affirmed because it had held in

App.25a

Mays v. United States, 763 F.2d 1295 (11th Cir. 1985)

that a self-serving affidavit was insufficient to establish
a disputed fact. En banc, however, the court overruled
Mays, and concluded that “[a] non-conclusory affidavit
which complies with [Federal Rule of Civil Procedure]
56 can create a genuine dispute concerning an issue of
material fact, even if it is self-serving and/or uncorroborated.” United States v. Stein, 881 F.3d 853, 181-59
(11th Cir. 2018) (en banc). The court cautioned, however,
that “a self-serving and/or uncorroborated affidavit
will [not] always preclude summary judgment” and it
declined to decide whether “substantive federal tax
law” requires corroboration of a taxpayer’s affidavit.
Id.
The Court of Appeals has now remanded the case
so that this Court may consider, in the first instance,
whether Defendant’s self-serving affidavit created a
genuine dispute of fact. Accordingly, it is hereby
ORDERED AND ADJUDGED that this case is
REOPENED. The Court will enter a new scheduling
order for trial, but discovery remains closed. It is further
ORDERED AND ADJUDGED that Plaintiff
SHALL file a new motion for summary judgment by
Monday, July 23, 2018, that addresses ONLY the following question: does Defendant’s self-serving affidavit
create a genuine issue of material fact about Defendant’s
tax liability? Plaintiff’s response to the motion shall
address ONLY the same question. The Parties ARE
NOT permitted to engage in further discovery, to
supplement the record already before the court, or
otherwise to make new arguments which they could
have made when Plaintiff moved for summary judgment the first time. Failure to comply with this order
will result in the imposition of appropriate sanctions.

App.26a
DONE AND ORDERED in Chambers at Miami,
Florida, this 2nd day of July, 2018.
/s/ Ursula Ungaro
United States District Judge

App.27a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(MAY 9, 2018)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
ESTELLE STEIN,

Defendant-Appellant.

________________________
No. 16-10914

D.C. Docket No. 1:15-cv-20884-UU
Appeal from the United States District Court
for the Southern District of Florida
Before: William PRYOR, JORDAN, and
Julie CARNES, Circuit Judges.
PER CURIAM
Estelle Stein appeals the grant of summary judgment in favor of the United States for unpaid federal
income taxes, late penalties, and interest accrued for
five tax years. This appeal has evolved several times
since Stein appealed. Bound by Mays v. United States,
763 F.2d 1295 (11th Cir. 1985), this panel initially
affirmed because Stein could offer only a self-serving

App.28a
affidavit to establish that she paid the disputed
assessments. But our Court later granted rehearing en
banc and overruled Mays in United States v. Stein, 881
F.3d 853 (11th Cir. 2018) (en banc). On remand to the
original panel, the parties now advance arguments that
no longer resemble the arguments they made to the district court. Because we are not a court of first review,
we vacate the judgment of the district court and
remand to allow the district court to consider the new
arguments in the first instance.
In 2015, the government sued Estelle Stein and
moved for summary judgment to reduce certain income
tax assessments to judgment. It submitted copies of
her federal tax returns, transcripts of her accounts,
and an affidavit from an officer of the Internal Revenue
Service. Stein responded with an affidavit that attested
that, “to the best of [her] recollection,” she had paid
the taxes and penalties owed for the years in question.
But she acknowledged that she no longer had, and could
not obtain, bank statements to corroborate her account.
The government prevailed in the district court on
the theory that a taxpayer’s self-serving affidavit is
insufficient to defeat summary judgment. It argued
that it had made timely assessments and that those
assessments were presumptively correct. It then cited
Mays and declared that “Stein’s self-serving uncorroborated pleadings are insufficient to rebut th[at] presumption of correctness.” The district court agreed
and granted summary judgment in favor of the government. It ruled that Stein did not satisfy her burden to
overcome the presumption of correctness because “she
did not produce any evidence documenting [her alleged]
payments.”

App.29a
This panel affirmed. We cited Mays and explained
that “Stein’s general and self-serving assertions that
she paid the taxes owed and related late penalties . . . failed to rebut the presumption established by
the assessments.” United States v. Stein, 840 F.3d
1355, 1357 (11th Cir. 2016) (citing Mays, 763 F.2d at
1297). But the full Court vacated the panel opinion
and reheard the appeal en banc.
The en banc Court overruled Mays. We held that
“[a] non-conclusory affidavit which complies with
[Federal Rule of Civil Procedure] 56 can create a
genuine dispute concerning an issue of material fact,
even if it is self-serving and/or uncorroborated.” Stein,
881 F.3d at 858-59. But we cautioned that “a self-serving and/or uncorroborated affidavit will [not] always
preclude summary judgment,” and we declined to
decide whether “substantive federal tax law” requires
corroboration of a taxpayer’s affidavit. Id. at 859.
On remand to the panel, the government dispenses
with any reliance on Mays but argues that it is still
entitled to summary judgment. The government contends that Stein’s affidavit fails to create a genuine
issue of material fact about her tax liability. For
example, it maintains that Stein must “show that
funds were actually delivered to the [Internal Revenue
Service]” to defeat summary judgment.
Because these arguments were never presented by
the government to the district court, we decline to
consider them in the first instance. “[A]s a court of
appeals, we review claims of judicial error in the trial
courts.” Access Now, Inc. v. Sw. Airlines Co., 385 F.3d
1324, 1331 (11th Cir. 2004). “If we were to regularly
address questions . . . that district[ ] court[s] never
had a chance to examine, we would not only waste our

App.30a
resources, but also deviate from the essential nature,
purpose, and competence of an appellate court.” Id.
Indeed, “[t]oo often our colleagues on the district
courts complain that the appellate cases about which
they read were not the cases argued before them.”
Irving v. Mazda Motor Corp., 136 F.3d 764, 769 (11th
Cir. 1998).
We VACATE the summary judgment entered by
the district court and REMAND for further proceedings
consistent with our en banc opinion.

App.31a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(JANUARY 31, 2018)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
ESTELLE STEIN,

Defendant-Appellant.

________________________

No. 16-10914
D.C. Docket No. 1:15-cv-20884-UU
Appeal from the United States District Court
for the Southern District of Florida
Before: ED CARNES, Chief Judge, TJOFLAT,
MARCUS, WILSON, William PRYOR, MARTIN,
JORDAN, ROSENBAUM, Julie CARNES,
NEWSOM, and HULL, Circuit Judges.
JORDAN, Circuit Judge:

 Judge Jill Pryor is recused from this case and did not participate
in this decision. Judge Frank Hull continued to participate in this
decision after she assumed senior status pursuant to 28
U.S.C. § 46(c).

App.32a
We hold that an affidavit which satisfies Rule 56
of the Federal Rules of Civil Procedure may create an
issue of material fact and preclude summary judgment
even if it is self-serving and uncorroborated. And
because this principle applies in all civil cases, including those in the realm of tax law, we overrule that
portion of Mays v. United States, 763 F.2d 1295, 1297
(11th Cir. 1985), which is (or may be interpreted to be)
to the contrary.
I
This case concerns IRS assessments, so we begin
with some basic tax concepts. An assessment “amounts
to an IRS determination that a taxpayer owes the
[f]ederal [g]overnment a certain amount of unpaid
taxes,” and is “entitled to a legal presumption of correctness—a presumption that can help the [g]overnment prove its case against a taxpayer in court.”
United States v. Fior D’Italia, Inc., 536 U.S. 238, 242
(2002). “In reducing an assessment to judgment, the
[g]overnment must first prove that the assessment
was properly made. . . . [If it does so,] the taxpayer
must then prove that the assessment is erroneous in
order to prevail.” United States v. White, 466 F.3d
1241, 1248 (11th Cir. 2006). As far as we can tell, there
are no reported federal cases addressing what evidence
a taxpayer needs to present to show that an IRS
assessment has been paid or satisfied.
A
In 2015, the government sued Estelle Stein for
outstanding tax assessments, late penalties, and
interest owed for tax years 1996, 1999, 2000, 2001,
and 2002. See 26 U.S.C. § 7402. Its complaint alleged

App.33a
that Ms. Stein owed approximately $220,000 plus fees
and statutory additions.
When it moved for summary judgment, the government sought to demonstrate that Ms. Stein had
outstanding tax assessments by submitting copies of
her federal tax returns, transcripts of her accounts for
the tax years in question, and an affidavit from an IRS
officer. The government acknowledged that Ms. Stein
had paid the taxes due for 1996, 1999, and 2000 (as well
as some additional small amounts), but claimed she had
not satisfied the accrued penalties and interest for those
years. As for 2001 and 2002, the government asserted
that Ms. Stein had not paid any taxes, penalties, or
interest. The government did not depose Ms. Stein.
In response to the government’s summary judgment motion, Ms. Stein submitted an affidavit of her
own stating that, “to the best of [her] recollection,” she
had paid the taxes and penalties owed for the years in
question. Her affidavit specified that she had retained
an accounting firm to file the tax returns after the
death of her husband, who had been solely responsible
for filing the couple’s tax returns and paying their
taxes; that she recalled paying the taxes due,
including penalties, for each of those tax returns; that
she no longer had bank statements to establish her
payments to the IRS; that she could not obtain statements from her bank to prove her payments; and that
the IRS had acknowledged misapplying her tax
payment for 1996 to tax year 1979. The relevant paragraphs of Ms. Stein’s affidavit stated as follows:
8.

For 1996, this tax return was filed on
November 15, 2004. The IRS had no record
of receiving any payment and is claiming the

App.34a
full amount of the tax is due, along with
interest and penalties.
[***]
10. For the year 1999, I filed the return as
surviving spouse on February 11, 2005. The
return showed an amount due of $33,612. I
paid $35,226, which included the late penalty. The IRS has a record of that payment.
11. For the year 2000, I filed my return as surviving spouse on January 11, 2005. The
amount due on the return was $4,127. I paid
$4,349.00, which amount included the late
penalty. The IRS has a record of having
received that payment.
12. For the year 2001, I filed my return, as
surviving spouse, on March 10, 2005. The
amount of the return shows $15,998 due. Although I recall paying the tax on that return,
including a late penalty consistent with the
other returns that I filed, the IRS does not
have a record of receiving such payment.
13. For the year 2002, I filed my return on March
10, 2005, as surviving spouse. The amount of
tax shown on the return was $52,342.
Although I recall writing a check for this
amount, plus, late penalties, the IRS has no
record of receiving his amount.
[***]
21. . . . [I]t is my unwavering contention that I
paid the taxes due, including late filing
penalties, at such time as I filed the returns
for each of the tax years in question.

App.35a
D.E. 32-1 at 2-3.
The district court entered summary judgment in
favor of the government. See D.E. 40. It first concluded
that the evidence submitted by the government created
a presumption that its assessments were correct.
Turning to Ms. Stein’s affidavit, the district court ruled
that “[a] number of the facts contained within [the]
affidavit [were] not relevant facts for . . . consideration.”
Id. at 6. Although Ms. Stein maintained that payments
had been made, she “did not produce any evidence documenting said payments,” id., and therefore did not
satisfy her burden to overcome the presumption of correctness given to the government’s assessments. As a
result, there was “no genuine dispute as to any
material fact,” id. at 7, and the government was
entitled to judgment as a matter of law.
Ms. Stein appealed, and a panel of this court
affirmed. The panel ruled that her “affidavit failed to
create a genuine factual dispute about the validity of
the [government’s] assessments” because, under Mays,
763 F.2d at 1297, her “general and self-serving assertions . . . failed to rebut the presumption established by
the assessments.” United States v. Stein, 840 F.3d 1355,
1357 (11th Cir. 2016). We vacated the panel’s opinion
and took the case en banc to determine whether Mays
should be overruled.
II

Mays, a tax refund case, came to us in a summary

judgment posture. We affirmed the district court’s
grant of summary judgment in favor of the government,
holding that the taxpayer’s submissions were insufficient to create an issue for trial. See 763 F.2d at 1297.
We first noted that a taxpayer in a refund suit has the

App.36a
twin burdens of showing that the government’s assessment is wrong, and of establishing the “correct amount
of the refund due.” Id. We then explained that a
taxpayer’s claim “must be substantiated by something
other than tax returns, uncorroborated oral testimony,
or self-serving statements.” Id. (internal citations omitted). Turning to the record in the case, we concluded
that the taxpayer’s computer printout of business
expenses (prepared after a tax audit) and net worth
statements (which did not refer to any original records)
“did not overcome the presumption of correctness due
[to] determinations” of the Commissioner of the IRS:
“[The taxpayer] has submitted only self-serving documents which do not substantiate his claims.” Id.
We overrule Mays to the extent it holds or suggests
that self-serving and uncorroborated statements in a
taxpayer’s affidavit cannot create an issue of material
fact with respect to the correctness of the government’s
assessments. Nothing in Rule 56 prohibits an otherwise
admissible affidavit from being self-serving. And if
there is any corroboration requirement for an affidavit,
it must come from a source other than Rule 56.
A
Rule 56(a) authorizes summary judgment only
when “there is no genuine dispute as to any material
fact” and the moving party is “entitled to judgment as a
matter of law.” Rule 56(c), in turn, allows a nonmoving
party to dispute a material fact through an affidavit,
which must be “made on personal knowledge, set out
facts that would be admissible in evidence, and show
that the affiant or declarant is competent to testify on
the matters stated.” See generally Celotex Corp. v.

App.37a

Catrett, 477 U.S. 317, 322 (1986) (“[T]he plain lan-

guage of Rule 56(c) mandates the entry of summary
judgment, after adequate time for discovery and upon
motion, against a party who fails to make a showing
sufficient to establish the existence of an element
essential to that party’s case, and on which that party
will bear the burden of proof a trial.”).

An affidavit cannot be conclusory, see, e.g., Lujan
v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888 (1990), but

nothing in Rule 56 (or, for that matter, in the Federal
Rules of Civil Procedure) prohibits an affidavit from
being self-serving. Indeed, as the Seventh Circuit
observed, “most affidavits submitted [in response to
a summary judgment motion] are self-serving.”
Payne v. Pauley, 337 F.3d 767, 772 (7th Cir. 2003). Not
surprisingly, most of our cases correctly explain that a
litigant’s self-serving statements based on personal
knowledge or observation can defeat summary judgment. See, e.g., Feliciano v. City of Miami Beach, 707
F.3d 1244, 1253 (11th Cir. 2013) (“To be sure,
Feliciano’s sworn statements are self-serving, but that
alone does not permit us to disregard them at the summary judgment stage.”); Price v. Time, Inc., 416 F.3d
1327, 1345 (11th Cir.) (“Courts routinely and properly
deny summary judgment on the basis of a party’s
sworn testimony even though it is self-serving.”),
modified on other grounds on denial of reh’g., 425 F.3d
1292 (11th Cir. 2005).

It makes no difference that this is a tax case. We
apply the same summary judgment standard in tax
cases as we do in other areas of law. See, e.g., Roberts
v. Comm’r, 329 F.3d 1224, 1227 (11th Cir. 2003) (citing
Tax Ct. R. 121, which mirrors Rule 56). See also Lewis
v. United States, 336 F. App’x 535, 538 (6th Cir. 2009)

App.38a
(rejecting the argument that the ordinary summary
judgment standard does not apply in tax cases).
To support its statement that a taxpayer needs
more than his self-serving testimony to preclude summary judgment, Mays relied on Gibson v. United
States, 360 F.2d 457 (5th Cir. 1966). But Gibson does
not hold that self-serving statements in a taxpayer’s
affidavit cannot create a genuine issue of material
fact. In Gibson, which involved a claim for a refund of
excise taxes, the taxpayer appealed certain unfavorable
factual findings made by the district court following
a bench trial. The taxpayer argued primarily that
the district court had erred in disregarding his
testimony and the tax liability calculations contained
in his own “excise tax journal.” See id. at 460-62. The
former Fifth Circuit held that the district court’s
factual findings were not clearly erroneous and
explained that the taxpayer’s self-serving testimony
did “not compel a contrary result.” Id. at 462.

Gibson does not hold that a district court can reject
or ignore a taxpayer’s affidavit at summary judgment
on the ground that it is self-serving. Gibson was an
appeal from a bench trial, and in that setting a district
court can certainly take into account the self-serving
nature of a litigant’s testimony. A district court is,
after all, permitted to assess credibility and weigh evidence at a bench trial, and the same goes for the jury
when it is the trier of fact.1
1 Of note, none of the cases cited in Gibson arose in a summary
judgment posture. See Pinder v. United States, 330 F.2d 119, 121
(5th Cir. 1964) (reviewing jury verdict); Mendelson v. Comm’r,
305 F.2d 519, 521 (7th Cir. 1962) (reviewing tax court’s factual
findings); Urban Redevelopment Corp. v. Comm’r, 294 F.2d 328,
332 (4th Cir. 1961) (same); Comm’r v. Smith, 285 F.2d 91, 93 (5th

App.39a
Properly understood, Gibson stands only for the
unremarkable proposition that a fact-finder can choose
to disregard a litigant’s self-serving (and unsupported)
trial testimony, and that its decision to do so generally
will not constitute clear error. That proposition has no
place at summary judgment, where “the [court’s]
function is not . . . to weigh the evidence.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 249 (1986). See also
Danzer v. Norden Sys., Inc., 151 F.3d 50, 57 (2d Cir.
1998) (rejecting the argument that a self-serving affidavit is insufficient to defeat summary judgment
because it would “thrust the courts—at an inappropriate stage—into an adjudication of the merits”).
B
Nor does Rule 56 require that an otherwise admissible affidavit be corroborated by independent
evidence. As noted, Rule 56(c) states only that an
affidavit must be “made on personal knowledge, set
out facts that would be admissible in evidence, and
show that the affiant or declarant is competent to
testify on the matters stated.”
We see no basis for imposing a corroboration gloss
on Rule 56, cf. Leatherman v. Tarrant Cty. Narcotics
Intelligence & Coordination Unit, 507 U.S. 163, 16869 (1993) (rejecting a judicially-imposed “heightened
pleading standard” not found in Federal Rules of Civil
Procedure 8 and 9 for municipal liability cases), and
reaffirm that “even in the absence of collaborative evidence, a plaintiff’s own testimony may be sufficient to
Cir. 1960) (same); Carter v. Comm’r, 257 F.2d 595, 596, 599 (5th
Cir. 1958) (same); Anderson v. Comm’r, 250 F.2d 242, 246-47 (5th
Cir. 1957) (same); Archer v. Comm’r, 227 F.2d 270, 272 (5th Cir.
1955) (same).

App.40a
withstand summary judgment.” Strickland v. Norfolk S.
Ry. Co., 692 F.3d 1151, 1160 (11th Cir. 2012). Accord
E.E.O.C. v. Warfield-Rohr Casket Co., 364 F.3d 160, 16364 (4th Cir. 2004); Jackson v. Ducksworth, 955 F.2d
21, 22 (7th Cir. 1992); Weldon v. Kraft, Inc., 896 F.2d
793, 800 (3d Cir. 1990); Becho, Inc. v. United States,
47 Fed. Cl. 595, 603-04 & n.11 (2000); Marsh v. Hog
Slat, Inc., 79 F. Supp. 2d 1068, 1076 (N.D. Iowa 2000).
If corroboration is needed, then that requirement
must come from a source other than Rule 56, such as
the substantive law that governs the parties’ dispute
or the Federal Rules of Evidence. See, e.g., Fed. R.
Evid. 804(b)(3)(B) (requiring corroboration to support
the admission of statements against the declarant’s
interest).2
III
A non-conclusory affidavit which complies with
Rule 56 can create a genuine dispute concerning an
issue of material fact, even if it is self-serving and/or
uncorroborated. We overrule Mays to the extent that

2 In the appeal of a tax refund case that went to trial, we stated
almost 40 years ago that a taxpayer cannot meet his burden
through his “uncorroborated oral testimony.” Griffin v. United
States, 588 F.2d 521, 530 (5th Cir. 1979) (concluding that, because
the taxpayer’s testimony was corroborated, the issue was for the
jury). Mays, itself a tax refund case, cited Griffin for the proposition that a taxpayer’s refund claim needs to be substantiated by
“something other than . . . uncorroborated oral testimony.” Mays,
763 F.2d at 1297. This case does not involve a refund claim, and
the appeal is from a summary judgment order. Given the posture
and nature of this en banc proceeding, we do not express any
views on whether the quoted statement from Griffin is correct as
a matter of substantive federal tax law.

App.41a
it holds or suggests otherwise, and remand the case to
the panel for consideration of Ms. Stein’s appeal.
We do not mean to suggest that a self-serving and/or
uncorroborated affidavit will always preclude summary
judgment. We hold only that the self-serving and/or
uncorroborated nature of an affidavit cannot prevent
it from creating an issue of material fact. And we leave
to the panel the task of determining the impact of Ms.
Stein’s affidavit.
Finally, we recognize that the government, in its
en banc brief, has made a number of additional and
related arguments in support of the district court’s
summary judgment order. For example, the government
argues that, in a case like this one, a taxpayer’s affidavit
concerning the matter of payment must be substantiated and corroborated (for example, by documentary
evidence) pursuant to principles of substantive federal
tax law, particularly given the presumption of correctness that attaches to its assessments. Given the narrow
question presented for en banc review, we think it is
best for the panel to consider the government’s arguments, as well as Ms. Stein’s responses to them.
REMANDED TO THE PANEL
WITH INSTRUCTIONS.

App.42a
CONCURRING OPINION OF WILLIAM PRYOR
WILLIAM PRYOR, Circuit Judge, concurring:
I concur fully in the majority opinion, but I write
separately to highlight the irony of our earlier precedent when viewed in the light of the history of the
Seventh Amendment. The precedent we overrule
today, Mays v. United States, prevented juries from
resolving factual disputes when a taxpayer offered
only a self-serving affidavit in support of his position.
763 F.2d 1295, 1297 (11th Cir. 1985). As the majority
opinion explains, that rule had no basis in law. But it
also flouted the history of the right to a jury trial in
civil cases.
In the decades before the American Revolution,
Parliament developed procedures to enforce its revenue
measures by evading colonial juries. See 1 Julius
Goebel, Jr., History of the Supreme Court of the United
States 85-86 (Paul A. Freund ed., 1st ed. 1971); Philip
Hamburger, Is Administrative Law Unlawful? 150
(2014). England had struggled to enforce its trade
laws in the colonies, and colonial officials in America
blamed local juries for refusing to be impartial in
customs disputes. See Carl Ubbelohde, Vice-Admiralty
Courts and the American Revolution 15 (1960). In
response, Parliament expanded the jurisdiction of
admiralty courts, which sat without juries, to include
trade cases that would have been tried by a jury in
England. See Ubbelohde, supra at 15-16, 21. Later,
seeking to extract more revenue from the colonies,
Parliament enacted the Sugar Act for “the improvement
of ‘the Revenue of th[e] Kingdom’” and extended the
power of customs officials, at their discretion, to
“channel cases into admiralty courts, and so to eliminate

App.43a
jury trial.” Goebel, supra at 85-86 (quoting 4 Geo. 3, c.
15 (Eng. 1764)); see also Caleb Nelson, The Constitutionality of Civil Forfeiture, 125 Yale L.J. 2446, 2463
(2016). And the Stamp Act, 5 Geo. 3, c. 12 (Eng. 1765),
provided that customs officials could enforce not only
the stamp tax, but also “revenue acts in general” in
the juryless admiralty courts. Goebel, supra at 86.
Colonial Americans vehemently objected to these
measures, and the denial of the right to a jury in tax
cases became a chief complaint animating the American
Revolution. The “colonies formed a Congress to protest
‘the tyrannical acts of the British Parliament.’”
Hamburger, supra at 150 (quoting Resolutions of the
Stamp Act Congress (Oct. 19, 1765)). The Stamp Act
Congress declared that “trial by jury, is the inherent
and invaluable right of every British subject in these
colonies.” Resolutions of the Stamp Act Congress (Oct.
19, 1765), in Select Charters and Other Documents
Illustrative of American History 1606-1775, at 315
(William MacDonald ed., MacMillan & Co. 1906). And
it denounced “extending the jurisdiction of the courts
of admiralty beyond its ancient limits” because of its
“manifest tendency to subvert the rights and liberties
of the colonists.” Id. In the Declaration of Independence,
Americans cited the “depriv[ation] in many cases, of
the benefit of Trial by Jury” as one of the “Usurpations”
committed by King George III that they would no longer
tolerate. The Declaration of Independence paras. 2, 20
(1776).
The failure to guarantee the right to a jury trial
in civil cases almost prevented the ratification of the
Constitution. In attempting to persuade New York to
ratify the Constitution, Alexander Hamilton acknowledged “[t]he objection” that had “met with most

App.44a
success” in his home state and “several of the other
states” was “the want of a constitutional provision for the
trial by jury in civil cases.” The Federalist No. 83, at
558 (Alexander Hamilton) (Jacob E. Cooke ed., 1961).
And he discussed the specific argument that the civil
jury is a necessary “safeguard against an oppressive
exercise of the power of taxation.” Id. at 563. As
Justice Story later explained, Americans decided that
it was not enough that Congress had the authority “to
provide in all cases for the trial by jury.” United States
v. Wonson, 28 F. Cas. 745, 750 (C.C. Mass. 1812) (No.
16,750). The defenders of the Constitution prevailed
in the ratification debates only after promising an
amendment that guaranteed the right to trial by jury
in civil cases. Stanton D. Krauss, The Original Under-

standing of the Seventh Amendment Right to Jury
Trial, 33 U. Rich. L. Rev. 407, 412-13 (1999). Ameri-

cans then enshrined that right in the Seventh Amendment. U.S. Const. Amend. VII.

Our precedent in Mays lost sight of the historical
basis for the right to a civil jury when it denied a
taxpayer a jury trial if all he offered in his favor was a
self-serving affidavit to rebut official records of his
delinquency. In so doing, Mays ousted the jury from
its historical role in the exact context—the enforcement
of tax laws—that prompted the founding generation to
adopt the Seventh Amendment in the first place.
Today, we rectify that error.

App.45a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(NOVEMBER 4, 2016)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
ESTELLE STEIN,

Defendant-Appellant.

________________________

No. 16-10914
D.C. Docket No. 1:15-cv-20884-UU
Appeal from the United States District Court
for the Southern District of Florida
Before: William PRYOR, JORDAN and
Julie CARNES, Circuit Judges.
PER CURIAM:
Estelle Stein appeals the summary judgment in
favor of the United States for unpaid federal income
taxes, late penalties, and interest accrued for tax
years 1996 and 1999 through 2002. Stein argues that
the district court erred because her affidavit created a
genuine factual dispute about whether she had paid the
taxes and penalties owed. The government responds that

App.46a
Stein’s conclusory affidavit was insufficient to rebut
the presumption that its assessment was valid. The
government also requests that we remand for the district court to revise its judgment to credit Stein for a
$548 payment for tax year 1996. We affirm the entry of
summary judgment regarding Stein’s liability, but we
vacate that part of the judgment computing the
amount of the assessments and remand for the district
court to recalculate the assessment against Stein for
tax year 1996.
We review de novo a summary judgment and view
the evidence in the light most favorable to the
nonmovant. “If the party seeking summary judgment
meets the initial burden of demonstrating the absence
of a genuine issue of material fact, the burden then
shifts to the nonmoving party to come forward with
sufficient evidence to rebut this showing with affidavits
or other relevant and admissible evidence.” Avirgan v.
Hull, 932 F.2d 1572, 1577 (11th Cir. 1991). When the
evidence presented by the nonmoving party “is merely
colorable, or is not significantly probative, summary
judgment may be granted.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 249-50 (1986) (citations
omitted).
The district court did not err by entering summary
judgment in favor of the United States. The United
States submitted copies of Stein’s federal tax returns,
transcripts of her accounts for tax years 1996 and
1999 through 2002, and an affidavit from Officer
Michael Brewer of the Internal Revenue Service that
established Stein had outstanding tax assessments.
This evidence created a presumption that the assessments were proper and shifted the burden to Stein to

App.47a
rebut the presumption with evidence that the assessments were erroneous. See United States v. White,
466 F.3d 1241, 1248-49 (11th Cir. 2006). Stein submitted an affidavit stating that she “retained an accounting
firm to file . . . tax returns for [her]”; she “recalled”
paying “the tax, including late penalties, for each
unfiled tax return”; and she “no longer [had] . . . bank
statements in her possession” and could not obtain statements from her bank to “prove [her] payments made to
the IRS.” But Stein’s affidavit failed to create a
genuine factual dispute about the validity of the
assessments. Stein did not dispute that she owed
interest accrued on her belated filings and payments
for tax years 1999 through 2002. And Stein’s general
and self-serving assertions that she paid the taxes
owed and related late penalties for tax years 1996 and
1999 through 2002 failed to rebut the presumption
established by the assessments. See Mays v. United
States, 763 F.2d 1295, 1297 (11th Cir. 1985) (a taxpayer’s claim “must be substantiated by something
other than . . . self-serving statements”).
The United States requests that we remand for the
district court to credit Stein for a tax payment. In its
filings, the United States acknowledged that Stein
had remitted $548 that applied to her assessment for
tax year 1996. The district court failed to account for
Stein’s payment when computing her tax liabilities.
We vacate that part of the judgment addressing the
amount of Stein’s assessments and remand for the district court to credit Stein’s payment and to recalculate
her assessment for tax year 1996.
We AFFIRM the entry of summary judgment
regarding Stein’s liability, but we VACATE that part

App.48a
of the judgment computing the amount of the assessments and REMAND for the district court to recalculate Stein’s assessment for tax year 1996.
AFFIRMED IN PART, VACATED IN PART, AND
REMANDED.

App.49a
CONCURRING OPINION
JORDAN, Circuit Judge, joined by WILLIAM PRYOR,
Circuit Judge, concurring:
We are bound by our decision in Mays v. United
States, 763 F.2d 1295, 1297 (11th Cir. 1985), a summary judgment case holding that self-serving statements in a taxpayer’s affidavit, without more, are
insufficient to genuinely dispute the presumption that
the government’s tax assessment is correct. I therefore
reluctantly agree that we must affirm the district court’s
grant of summary judgment.
I write separately, however, because the cases
upon which Mays relies arise in the post-trial context,
where the standard of review is much more deferential
than at the summary judgment stage. The principle
articulated in Mays has no place in a summary judgment posture. And I believe that the single precedent
supporting Mays’ analytical leap, Heyman v. United
States, 497 F.2d 121 (5th Cir. 1974), was itself
wrongly decided.
I
In support of the proposition that uncorroborated,
self-serving testimony by a taxpayer cannot create an
issue of fact to defeat summary judgment, Mays cites
two non-summary judgment cases. Neither one justifies
the ruling in Mays.
The government in Griffin v. United States, 588
F.2d 521 (5th Cir. 1979), sought to set aside a jury
verdict finding a taxpayer liable for less than the
amount claimed by the government on the basis that
the taxpayer had “introduced no evidence other than

App.50a
his own uncorroborated testimony supporting an
estimate of tax liability lower than the government’s,
thus failing in his burden of rebutting the government’s
estimate of liability.” Id. at 523-24. The Fifth Circuit,
in dicta, agreed with the general principle articulated
by the government, but denied relief because other
evidence introduced at trial had corroborated the
taxpayer’s testimony. See id. at 529-30.
Similarly, in Gibson v. United States, 360 F.2d
457 (5th Cir. 1966), a taxpayer appealed unfavorable
factual findings made by the district court at his bench
trial, arguing primarily that the court erred by disregarding the tax liability calculations in his “excise tax
journal” and the testimony he had offered in support.
Id. at 458-60. The Fifth Circuit held that the district
court’s findings were not clearly erroneous and
explained that the taxpayer’s self-serving statements
did “not compel a contrary result.” Id. at 461-62.
These two cases do not support Mays’ holding. At
summary judgment the moving party has an affirmative obligation to establish the absence of a genuine
issue of material fact and to show that it is entitled to
judgment as a matter of law. See Fed. R. Civ. P. 56. A
single material fact genuinely in dispute makes it the
proper province of the jury, and not the court, to decide
the outcome. See Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 249 (1986) (“[A]t the summary judgment stage
the judge’s function is not himself to weigh the evidence and determine the truth of the matter but to
determine whether there is a genuine issue for trial.”).

Gibson involved a bench trial, and in that context
we do not disturb a district court’s factual findings
unless the appellant accomplishes the herculean task
of demonstrating that “the record lacks substantial

App.51a
evidence to support [them],” such “that our review of
the entire evidence leaves us with the definite and
firm conviction that a mistake has been committed.”
Ocmulgee Fields, Inc. v. C.I.R., 613 F.3d 1360, 1364
(11th Cir. 2010). And reversing a jury verdict for insufficient evidence, as the government attempted to do in
Griffin, occurs only when “the facts and inferences
point overwhelmingly in favor of the moving party, such
that reasonable people could not arrive at a contrary
verdict”—the polar opposite of the standard that
applies at summary judgment. See Miller v. Kenworth
of Dothan, Inc., 277 F.3d 1269, 1275 (11th Cir. 2002).
Likewise, none of the binding cases cited by Griffin
and Gibson arose in a summary judgment posture. See
Carson v. United States, 560 F.2d 693, 695 (5th Cir.
1977) (reviewing factual findings by district court
following bench trial); Pinder v. United States, 330
F.2d 119, 121 (5th Cir. 1964) (reviewing jury verdict);
C.I.R. v. Smith, 285 F.2d 91, 93 (5th Cir. 1960)
(reviewing tax court’s factual findings following bench
trial); Carter v. C.I.R., 257 F.2d 595, 596, 599 (5th Cir.
1958) (same); Anderson v. C.I.R., 250 F.2d 242, 246-47
(5th Cir. 1957) (same); Kite v. C.I.R., 217 F.2d 585, 588
(5th Cir. 1955) (same); Archer v. C.I.R., 227 F.2d 270,
272 (5th Cir. 1955) (same); Boyett v. C. I. R., 204 F.2d
205, 208 (5th Cir. 1953) (same); Carmack v. C.I.R., 183
F.2d 1, 2 (5th Cir. 1950) (same). See also Quock Ting
v. United States, 140 U.S. 417, 422 (1891) (reviewing
factual findings by district court). In short, these
cases, with their more deferential standards of review,
do not provide the proper framework at summary
judgment.

App.52a
II

Heyman, a non-summary judgment case, is the
only other precedent besides Mays that supports

entering summary judgment over a taxpayer’s unsubstantiated, self-serving testimony. The taxpayers in
Heyman paid wagering excise taxes and sued for a
refund. See 497 F.2d at 122. In response, the government counterclaimed for the unpaid portion of the
assessment against each taxpayer. See id. At trial, one
taxpayer claimed that the government overtaxed him
because it misunderstood the amount of wagers that
he had actually placed, and offered uncorroborated
testimony contradicting the government’s assessment.
See id. at 122-23. The district court directed a verdict
in favor of the government despite this testimony, and
the taxpayer appealed. See id. at 122. The Fifth Circuit
affirmed the directed verdict, holding that the taxpayer’s
uncorroborated testimony was insufficient to meet his
burden of showing that the government’s assessment
was incorrect. See id. at 122-23.
The standard for a directed verdict under Federal
Rule of Civil Procedure 50(a)—now referred to as a
judgment as a matter of law—mirrors the standard for
summary judgment. See Liberty Lobby, Inc., 477 U.S.
at 250 (“[T]he trial judge must direct a verdict if, under
the governing law, there can be but one reasonable
conclusion as to the verdict.”). Heyman supports the
outcome in Mays because, though at a different stage
in litigation, Heyman effectively held that “reasonable
minds could [not] differ” as to whether uncorroborated,
self-serving statements could overcome the presumption
of correctness due to the government’s assessment. Id.
at 250-51.

App.53a
But Heyman, a case which cited no authority whatsoever for its ruling, was wrongly decided. As explained
above, none of the cases cited by Mays, nor any of
those cases’ antecedents, hold that self-serving statements made by a taxpayer with personal knowledge
cannot create a jury question as to the correctness of
the government’s assessment. All they say is that a
reasonable factfinder—be it the jury, the district court,
or the tax court—may properly disregard uncorroborated, self-serving statements as suspect. This is a far
cry from the conclusion in Heyman that no reasonable
factfinder could decide differently.
III

Mays should be overruled. Though the evidentiary
weight of self-serving testimony may warrant discounting by the factfinder at trial, that logic has no place at
summary judgment, where “the judge’s function is
not . . . to weigh the evidence.” Id. at 249. And it makes
no difference that this is a tax case. As the Sixth Circuit
previously noted, albeit in an unpublished decision,
there is no authority for the proposition that the ordinary
summary judgment standard does not apply to tax
cases. See Lewis v. United States, 336 F. App’x 535,
538 (6th Cir. 2009).
More problematically, Mays controverts Rule 56.
Rule 56(a) authorizes summary judgment only when
“there is no genuine dispute as to any material fact”
and Rule 56(c), in turn, allows a nonmoving party to
genuinely dispute a material fact through an affidavit.
That affidavit must be “made on personal knowledge,
set out facts that would be admissible in evidence, and
show that the affiant or declarant is competent to
testify on the matters stated.” Fed. R. Civ. P. 56(c).

App.54a
Nothing in the Federal Rules of Civil Procedure
prohibits a Rule 56 affidavit from being self-serving.
Indeed, as the Seventh Circuit wisely observed, “most
affidavits submitted [in response to summary judgment]
are self-serving.” Payne v. Pauley, 337 F.3d 767, 772
(7th Cir. 2003). Yet it is not the self-serving nature of
the affidavits that often renders them ineffective
against summary judgment, but some other deficiency
under Rule 56(c). See id.
By requiring that taxpayers corroborate otherwise
admissible affidavits to dispute a material fact, such
as the tax liability owed or, as here, payments made,
Mays imposes an additional burden on nonmoving
parties that Rule 56(c), by its own terms, does not.
This is precisely the sort of court-imposed, heightened
standard the Supreme Court has admonished as an
improper amendment of the Federal Rules of Civil
Procedure. See Leatherman v. Tarrant Cty. Narcotics
Intelligence & Coordination Unit, 507 U.S. 163, 16869 (1993) (reversing the Fifth Circuit for imposing a
“heightened pleading standard” for municipal liability
cases not found in Federal Rules of Civil Procedure 8
and 9). See also Adinolfe v. United Techs. Corp., 768
F.3d 1161, 1168-69 (11th Cir. 2014).
IV

Mays was wrongly decided, as it constituted an

unwarranted and unsupported deviation from Rule 56.
We should convene en banc and overrule Mays.

App.55a
ORDER OF THE DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
(FEBRUARY 26, 2016)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
ESTELLE STEIN,

Defendants.

________________________
Case No.15-cv-20884-UU

Before: Ursula UNGARO,
United States District Judge.
THIS CAUSE is before the Court upon United
States’ Motion for Summary Judgment. D.E. 31.
THE COURT has reviewed the Motion, the
pertinent portions of the record and is otherwise fully
advised of the premises.
Background
On March 4, 2015, Plaintiff, the United States of
America (“United States”), filed this action against
Defendant, Estelle Stein (“Stein”), pursuant to 26
U.S.C. § 7402, for unpaid tax liabilities resulting from

App.56a
the years 1996 and 1999 through 2001. D.E. 1. In its
Complaint, the United States alleges that Stein and
her now-deceased husband filed joint federal returns,
but they did not pay the income tax that was reported
on those tax returns, plus the accrued interest and
appropriate penalties. Id. ¶ 5. In this action, the United
States seeks a judgment against Stein in the amount
of $230,310.53, with any interest accrued thereafter in
accordance with 26 U.S.C. §§ 6621 and 6622. D.E. 31.
On December 24, 2015, the United States moved
for summary judgment on the grounds that the
transcripts of Stein’s account establish the Internal
Revenue Service (“IRS”) made timely assessments of
income tax, penalties, and interest against Stein in
accordance with the income that she reported on her
filed tax returns for 1996, 1999, 2000, 2001, and 2002.
D.E. 31. The United States argues that Stein has offered
no income, expense, or payment records to support her
claim that the assessments are invalid, and therefore,
her affidavit is insufficient to rebut the presumption
of correctness that is afforded to such assessments. Id.
In responding to the United States’ Motion for
Summary Judgment, Stein failed to comply properly
with Local Rule 56.1(a) for the Southern District of
Florida. Rule 56.1 requires that “[s]tatements of
material facts submitted in opposition to a motion for
summary judgment shall correspond with the order and
with the paragraph numbering scheme used by the
movant, but need not repeat that test of the movant’s
paragraphs.” In addition, “[a]ll material facts set forth
in the movant’s statement filed and supported as
required above will be deemed admitted unless
controverted by the opposing party’s statement, provided that the Court finds that the movant’s statement

App.57a
is supported by evidence in the record.” Local Rule
56.1(b). Despite Stein’s blatant deficiencies in failing
to properly respond to the United States’ Motion for
Summary Judgment, the Court still considered Stein’s
pleadings to assess whether there is a disputed issue
of material fact. The relevant undisputed facts are
recited below.
Stein filed her tax returns on behalf of herself and
her deceased husband for the tax year 1996 on November 15, 2004. (Aff. Brewer ¶ 4, Ex. 1; D.E. 31, Ex. B);
(Aff. Stein ¶ 8). Stein filed her joint tax return for the
tax year 1999 on February 11, 2005. (Aff. Brewer ¶ 4,
Ex. 1; D.E. 31, Ex. C); (Aff. Stein ¶ 10). Stein filed her
joint tax return for the tax year 2000 on January 11,
2005. (Aff. Brewer ¶ 4, Ex. 1; D.E. 31, Ex. D); (Aff.
Stein ¶ 11). Stein filed her joint tax return for the tax
year 2001 on March 10, 2005. (Aff. Brewer ¶ 4, Ex. 1;
D.E. 31, Ex. E); (Aff. Stein ¶ 12). Stein filed her joint
tax return for the tax year 2002 on March 10, 2005.
(Aff. Brewer ¶ 4, Ex. 1; D.E. 31, Ex. F); (Aff. Stein ¶ 13).
The IRS maintains a database to record assessments and payments of specific tax liabilities owed by
taxpayers. (Aff. Brewer ¶ 4). This information can be
obtained from a transcript of an account that is
retrieved from an IRS computer. Id. The IRS made the
following assessments with respect to Stein’s joint
income tax liabilities for 1996 and 1999 through 2002:

App.58a

Tax Assessment Assessed
Year
Date
Tax

Assessed
Penalty

Assessed
Interest

1996

3/28/05

$

548.00 * $123.30 $
#$137.00

486.72

1999

4/11/05

$33,612.00 *$7,562.70 $ 14,153.01
#$8,403.00

2000

3/07/05

$ 4,127.00 * $928.57 $ 1,178.46
#$949.21

2001

5/30/05

$15,998.00 *$3,599.55 $ 3,340.67
#$3,309.62
^$181.46

2002

5/16/05

$52,342.00 *$11,776.95 $ 6,600.43
#$6,804.46

 is used to indicate a late-filing penalty, # is to indicate

a failure to pay a penalty, and ^ is for an estimated
tax penalty.

(Aff. Brewer ¶ 6, Ex. 1). In total, the IRS is seeking an
outstanding balance of the federal income tax, penalty
and interest currently owed by Stein and her husband
for tax years 1996 and 1999 through 2002 to be $230,
130.53 as of November 30, 2015. (Aff. Brewer ¶ 12).
Legal Standard
Summary judgment is authorized only when the
moving party meets its burden of demonstrating that
“the pleadings, depositions, answers to interrogatories
and admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to

App.59a
judgment as a matter of law.” Fed. R. Civ. P. 56. When
determining whether the moving party has met this
burden, the Court must view the evidence and all
factual inferences in the light most favorable to the
non-moving party.” Adickes v. S.H. Kress & Co., 398
U.S. 144, 157 (1970); Rojas v. Florida, 285 F.3d 1339,
1341-42 (11th Cir. 2002).
The party opposing the motion may not simply rest
upon mere allegations or denials of the pleadings;
after the moving party has met its burden of proving
that no genuine issue of material fact exists, the nonmoving party must make a showing sufficient to
establish the existence of an essential element of that
party’s case and on which that party will bear the
burden of proof at trial.” See Celotex Corp. v. Catrell,
477 U.S. 317 (1986); Poole v. Country Club of Columbus,
Inc., 129 F.3d 551, 553 (11th Cir. 1997); Barfield v.
Brierton, 883 F.2d 923, 933 (11th Cir. 1989).
If the record presents factual issues, the Court
must not decide them; it must deny the motion and
proceed to trial. Envntl. Def. Fund v. Marsh, 651 F.2d
983, 991 (5th Cir. 1981). Summary judgment may be
inappropriate even where the parties agree on the
basic facts, but disagree about the inferences that
should be drawn from these facts. Lighting Fixture &
Elec. Supply Co. v. Cont’l Ins. Co., 420 F.2d 1211, 1213
(5th Cir. 1969). If reasonable minds might differ on
the inferences arising from undisputed facts, then the
Court should deny summary judgment. Impossible
Elec. Techs., Inc. v. Wackenhut Protective Sys., Inc.,
669 F.2d 1026, 1031 (5th Cir. 1982); see also Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986) (“[T]he

App.60a
dispute about a material fact is ‘genuine’ . . . if the evidence is such that a reasonable jury could return a
verdict for the nonmoving party.”)
Moreover, the party opposing a motion for summary judgment need not respond to it with evidence
unless and until the movant has properly supported
the motion with sufficient evidence. Adickes, 398 U.S.
at 160. The moving party must demonstrate that the
facts underlying the relevant legal questions raised by
the pleadings or are not otherwise in dispute, or else
summary judgment will be denied notwithstanding
that the non-moving party has introduced no evidence
whatsoever. Brunswick Corp. v. Vineberg, 370 F.2d
605, 611-12 (5th Cir. 1967). The Court must resolve all
ambiguities and draw all justifiable inferences in favor
of the nonmoving party. Liberty Lobby, Inc., 477 U.S.
at 255.
Analysis
In its Motion for Summary Judgment, the United
States argues that the IRS’s records documenting the
income tax, penalty, and interest against Stein are
presumed to be correct, and Stein’s affidavit is insufficient to rebut the presumption of correctness afforded to
these documents. D.E. 31. In response, Plaintiff
argues that Defendant paid all taxes due and owed,
including late penalties, for tax years 1996, 1999,
2000, 2001, and 2002. D.E. 32.
The Eleventh Circuit Court of Appeals has acknowledged that “[a] tax assessment made by the IRS
constitutes a ‘determination that a taxpayer owes the
Federal Government a certain amount of unpaid
taxes,’ and such determination ‘is entitled to a legal
presumption of correctness.’” United States v. Morgan,

App.61a
419 Fed. Appx. 958, 959 (11th Cir. 2011) (citing United
States v. Fior D’Italia, Inc., 536 U.S. 238, 242, 122 S.
Ct. 2117, 2122, 153 L.Ed.2d 280 (2000)). “In reducing
a tax assessment to judgment, the Government must
first prove that the assessment was properly made.”
United States v. Korman, 388 Fed. Appx. 914, 915 (11th
Cir. 2010) (citing United States v. White, 466 F.3d
1241, 1248 (11th Cir. 2006)). A taxpayer carries “the
burden of proving that the IRS’s computations in this
regard were erroneous.” Morgan, 419 Fed. Appx. at
958 (citing Pollard v. Comm’r, IRS, 786 F.2d 1063,
1066 (11th Cir. 1986)).
In this case, the United States supported its summary judgment motion with (1) a declaration of
Michael Brewer, an Internal Revenue Service Officer,
stating that Stein filed federal income tax returns for
1996 and 1999 through 2002 with a tax liability of
$230,130.53, and that Stein has not paid the assessment
despite notice and demand for payment, (2) transcripts
of account concerning Stein’s unpaid federal income
tax liabilities for years 1996 and 1999 through 2002,
and (3) Stein’s Form 1040 for the years 1996, 1999,
2000, 2001, and 2002. D.E. 31. Considered together,
the submission of these documents creates a presumption that the IRS’s assessment was proper. See United
States v. Lena, 370 Fed. Appx. 65 (11th Cir. 2010) (“A
tax assessment made by the IRS constitutes a ‘determination that a taxpayer owes the Federal Government a certain amount of unpaid taxes,’ and such a determination ‘is entitled to a legal presumption of correctness.’”); see also United States v. Chila, 871 F.2d
1015, 1017-18 (11th Cir. 1989) (noting that Certificates
of Assessments and Payments amount to presumptive
proof of a valid assessment). In responding, Stein filed

App.62a
her own affidavit. D.E. 32-1. Aside from her affidavit,
Stein did not cite to any record evidence and did not
file additional documentation.
A number of the facts contained within Stein’s
affidavit are not relevant facts for the Court’s consideration. While Stein contends that payments were
made, and that the IRS allegedly has a record of Stein
having made the required payments for the years
1999, 2001, and 2002, she did not produce any evidence documenting said payments. D.E. 32-1 ¶¶ 10-13.
Furthermore, Stein admits that she “no longer ha[s]
bank statements in [her] possession” to prove the
payments were made. Id. at ¶ 14. As the Supreme
Court has stated, “Rule 56(e) . . . requires the nonmoving party to go beyond the pleadings and by her
own affidavits, or by the ‘depositions, answers to
interrogatories, and admissions on file,’ designate
‘specific facts showing that there is a genuine issue for
trial.’” Celotex Corp. v. Catrett, 477 U.S. 317, 324, 106
S. Ct. 2548, 2553 (1998). In a federal income tax
liability case, it is Stein’s burden to overcome the presumption of correctness that is attributed to the IRS’s
documentation. In considering the pleadings filed and
the record evidence, the Court finds there is no
genuine dispute as to any material fact, and the
United States is entitled to judgment as a matter of
law. Accordingly, it is hereby
ORDERED AND ADJUDGED that United States’
Motion for Summary Judgment is GRANTED.
ORDERED AND ADJUDGED that this case is
CLOSED for administrative purposes.

App.63a
DONE AND ORDERED in Chambers at Miami,
Florida, this 22nd day of February, 2016.
/s/ Ursula Ungaro
United States District Judge

App.64a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
GRANTING REHEARING EN BANC
(MARCH 23, 2017)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
ESTELLE STEIN,

Defendant-Appellant.

________________________
No. 16-10914-BB

Appeal from the United States District Court
for the Southern District of Florida
Before: ED CARNES, Chief Judge, TJOFLAT,
HULL, MARCUS, WILSON, William PRYOR,
MARTIN, JORDAN, ROSENBAUM, and
Julie CARNES, Circuit Judges.1
BY THE COURT:
A petition for rehearing en banc having been filed,
a member of this Court in active service having requested
a poll on whether this case should be reheard en banc,
1 Judge Jill Pryor is recused from this case

App.65a
and a majority of the judges of this Court in active
service having voted in favor of granting rehearing en
banc, it is ORDERED that this case will be reheard en
banc. The panel’s opinion is VACATED.

